    REVIEW OF CONSISTENCY
    IN IMPLEMENTING POLICY
 ACROSS ACQUISITION CENTERS –
    TEMPORARY EXTENSIONS
REPORT NUMBER A100204/Q/A/P11005

          March 31, 2011
Date:          March 31, 2011


Reply to
Attn of:       Audit Manager, Acquisition Programs Audit Office (JA-A)

Subject:       Review of Consistency in Implementing Policy Across Acquisition Centers
               – Temporary Extensions
               Report Number A100204/Q/A/P11005

To:            Steven J. Kempf
               Commissioner, Federal Acquisition Service (Q)


This report presents the results of the Review of Consistency in Implementing Policy
Across Acquisition Centers – Temporary Extensions. The review found that Federal
Acquisition Service (FAS) acquisition centers do not consistently implement and/or
follow proper regulations, policies, and procedures regarding temporary extensions.

Contracting officers were not consistent with regard to the contract clauses they cite as
authority to issue extensions, and a review of selected contract files revealed
inconsistencies regarding the procedures used in awarding temporary extensions. In
addition, some contract files lacked evidence of supervisory review of the temporary
extensions. These issues could result in invalid extensions and lapses in the
performance period of Multiple Award Schedule contracts. Further, we noted that FAS
does not have an automated method for centrally compiling, summarizing, and reporting
data regarding the use of temporary extensions. The absence of this data significantly
limits FAS’s ability to manage and reduce the need for the extensions.

If you have any questions regarding this report, please contact me on (816) 926-8605.




      Signed

Michelle L. Westrup
Audit Manager
Acquisition Programs Audit Office




                        241 18 Street, Suite 607, Arlington, VA 22202-3402
                         Federal Recycling Program   Printed on Recycled Paper
      REVIEW OF CONSISTENCY IN IMPLEMENTING POLICY ACROSS
          ACQUISITION CENTERS – TEMPORARY EXTENSIONS
                REPORT NUMBER A100204/Q/A/P11005



TABLE OF CONTENTS                                                              Page

EXECUTIVE SUMMARY                                                                i

RESULTS OF REVIEW                                                                1

    Finding 1 -- Centralized Policies Related to Clauses and Supervision Are
    Inadequate                                                                   1

          Recommendations                                                        5

    Finding 2 -- No Reliable Data Exists for Monitoring and Managing
    Temporary Extensions                                                         5

          Recommendation                                                         7

    Conclusion                                                                   7

    Management Comments to the Draft Report                                      7

    Internal Controls                                                            7

APPENDIXES

    Appendix A: Background and Objective, Scope, and Methodology               A-1

    Appendix B: Management Comments to the Draft Report                        B-1

    Appendix C: Report Distribution                                            C-1
          REVIEW OF CONSISTENCY IN IMPLEMENTING POLICY ACROSS
              ACQUISITION CENTERS – TEMPORARY EXTENSIONS
                    REPORT NUMBER A100204/Q/A/P11005


                                EXECUTIVE SUMMARY


Purpose

The objective of this review was to determine if Federal Acquisition Service (FAS)
acquisition centers are consistently implementing and adhering to regulations, policies,
and procedures regarding temporary extensions.


Results in Brief

FAS acquisition centers do not consistently implement and/or follow proper regulations,
policies, and procedures regarding temporary extensions. Contracting officers are not
consistent with regard to the contract clauses they cite as authority to issue extensions.
A review of selected contract files revealed inconsistencies regarding the procedures
used in awarding temporary extensions. In addition, some contract files lacked
evidence of supervisory review of the temporary extensions. These issues could result
in invalid extensions and lapses in the performance period of Multiple Award Schedule
(MAS) contracts. The primary cause of these inconsistencies appears to be the lack of
adequate centralized policies and procedures regarding temporary extensions.

In addition, FAS does not have an automated method for centrally compiling,
summarizing, and reporting data regarding the use of temporary extensions. The
absence of this data significantly limits FAS’s ability to manage and reduce the need for
these extensions.


Recommendations

We recommend that the Commissioner of the Federal Acquisition Service:

1. Ensure consistency in implementing and adhering to regulations, policies, and
   procedures regarding temporary extensions by establishing centralized policies and
   procedures for use of the proper contract clauses by the acquisition centers.

2. Remedy potential financial and competition issues by examining the contracts with
   performance period lapses identified as part of this review.




                                            i
3. Improve FAS’s ability to manage and reduce the need for temporary extensions
   within the MAS program by developing an automated method of accumulating and
   reporting data regarding the use of temporary extensions. The data collected
   should encompass all acquisition centers and the rationale for issuing the
   extension.


Management Comments to the Draft Report

On March 30, 2011, the Commissioner of the Federal Acquisition Service concurred
with the findings and recommendations of the report. Management’s written comments
to the draft report are included in their entirety as Appendix B.




                                        ii
         REVIEW OF CONSISTENCY IN IMPLEMENTING POLICY ACROSS
             ACQUISITION CENTERS – TEMPORARY EXTENSIONS
                   REPORT NUMBER A100204/Q/A/P11005


                                RESULTS OF REVIEW


Federal Acquisition Service (FAS) acquisition centers do not consistently implement
and/or follow proper regulations, policies, and procedures regarding temporary
extensions. Contracting officers (COs) are not consistent with regard to the contract
clauses they cite as authority to issue extensions. A review of selected contract files
revealed inconsistencies regarding the procedures used in awarding temporary
extensions. In addition, some contract files lacked evidence of supervisory review of
the temporary extensions. These issues could result in invalid extensions and lapses in
the performance period of Multiple Award Schedule (MAS) contracts. The primary
cause of these inconsistencies appears to be the lack of adequate centralized policies
and procedures regarding temporary extensions.

In fiscal year (FY) 2010, FAS reported 1,192 temporary extensions; however, we
question the accuracy of this figure because FAS does not have an automated method
for centrally compiling, summarizing, and reporting extension data. The absence of this
data significantly limits FAS’s ability to manage and reduce the need for these
extensions.


Finding 1 -- Centralized Policies Related to Clauses and Supervision Are
Inadequate

While procurement regulations provide for the use of temporary extensions, FAS has
limited centralized policies regarding which clauses related to temporary extensions are
appropriate for use in MAS contracts. In addition, certain policies and procedures, such
as those dealing with supervision of temporary extensions, seem to be understood, but
have not been formalized. This has led to inconsistent implementation at the portfolio
and acquisition center levels and also within acquisition centers. These inconsistencies
may lead to potentially invalid extensions and contract lapses.

Clause Usage and Issuance Procedures are Inconsistent

COs are inconsistent with regard to the clauses they cite as authority to exercise
temporary extensions and unsure about the proper procedures to follow when issuing
them. These issues increase the likelihood that temporary extensions will not be
properly exercised and that lapses in contract coverage will occur.

A review of selected contract files revealed that contracting officials would benefit from
centralized policies on the use of various clauses when exercising temporary
                                            1
extensions. We sampled 13 contracts from 3 acquisition centers. These contracts
included 20 temporary extensions issued in FY 2010 and contained the following
inconsistencies related to clauses and issuance:

      •   Six contracts were unilaterally extended. Five of these contracts cited
          Federal Acquisition Regulation (FAR) clause 52.217-8, Option to Extend
          Services. The remaining contract cited FAR clause 52.212-4, Contract
          Terms and Conditions – Commercial Items, Changes.

      •   Seven contracts were bilaterally extended. Two cited no enabling clause
          (which is allowable in this instance); four cited FAR clause 52.212-4; two
          cited General Services Administration Acquisition Manual (GSAM) clause
          552.243-72, Modifications (Multiple Award Schedule); and two cited
          clause I-FSS-163, Option to Extend the Term of the Contract --
          Evergreen. 1

A CO may not unilaterally extend a contract in the absence of a contract clause that
permits such an extension. In addition, if the Government does not follow the terms of a
contract extension clause, or if there is no clause and the vendor continues performing
under the contract, the vendor may be entitled to an equitable adjustment.

Of the clauses used to unilaterally extend the contracts in our sample, we determined
that FAR clause 52.217-8 formed an acceptable basis for a temporary extension. This
clause states that, “The Government may require continued performance of any
services within the limits and at the rates specified in the contract….the total extension
of performance hereunder shall not exceed 6 months.”

However, another clause, FAR clause 52.212-4, cited in a sampled contract and used
for two unilaterally issued temporary extensions, was not appropriate. This clause
requires a written agreement of the parties. Since no such agreement was established,
the temporary extension was not correctly executed and the contract could be
considered to have lapsed. 2 This contract had sales exceeding $2 million in FY 2010.

Of the clauses that FAS cited for bilateral extensions, I-FSS-163 is not a valid basis for
a temporary extension because it refers to 5-year contract extensions, not temporary
extensions. Nevertheless, the extensions are valid because a bilaterally-issued
extension does not require that a specific contract clause be cited. However, this
situation indicates confusion amongst COs regarding proper issuance procedures.
We identified limited formal centralized guidance related to temporary extensions. Two
FAS Instructional Letters were issued by the Assistant Commissioner, Office of

1
    The total exceeds seven because some temporary extensions cited more than one enabling clause.
2
   While the United States Court of Appeals, Federal Circuit, has held that a contract extension can be
made after the performance period of the contract has expired, a Comptroller General decision found that
if this is done, the extension does not cover the time period between when the contract ended and the
extension was executed.

                                                   2
Acquisition Management. The Instructional Letters each cite different clauses as the
basis for extensions but specified no other procedures for their issuance:

   •   Instructional Letter 2008-02, dated December 17, 2008, states that
       temporary extensions are issued to ensure continued contract
       performance for a limited, definite period of time to allow for the
       completion of the option package review. As an example, it cites the
       extension of a contract for 60 days under FAR clause 52.217-8.

   •   Instructional Letter 2010-04, dated January 12, 2010, states that the CO
       may issue a unilateral modification with the vendor’s paper or electronic
       written request. It cites FAR clause 52.217-9, Option to Extend the Term
       of the Contract as the basis for the extension when no changes are made
       to the contract’s terms and conditions.

Some acquisition centers have responded to the lack of centralized guidance for COs
by including limited reference to temporary extensions in their center’s desk guide or by
issuing other policy documents:

   •   One acquisition center’s desk guide states that the CO may be required to
       execute a temporary extension if completion of a preaward audit is not
       anticipated prior to the end of the contract. However, it provides for no
       other possible causes of temporary extensions and gives no instructions
       on how to issue them.

   •   Another center’s management advised us that their desk guide does not
       address the issue of temporary extensions. This center’s director issued a
       policy memorandum in June 2009 regarding options review. It requires
       COs to notify center management if an option is late, but it does not
       provide further instructions related to the extensions.

   •   The third center’s management advised us that they have no center-wide
       policies or procedures related to temporary extensions. However, branch
       officials within that center advised us that they have issued guidance for
       their staff:

       o In October 2008, one branch issued policy stating that temporary
         extensions may be issued if the contractor (1) has had insufficient
         sales, (2) has not met its subcontractor goals, or (3) has failed to meet
         another contractual obligation. This list of reasons for extensions is
         restrictive and the guidance does not apply to other branches within
         the center.

       o A February 2010 policy issued by one branch in this acquisition center
         specified that FAR clause 52.217-8 was to be used as the basis for

                                           3
          temporary extensions. However, this clause may not be applicable to
          other branches within the center and it does not address issuance
          procedures.

Based on the results of our sample, review of available policies and procedures, and
interviews of FAS contracting officials, we believe FAS should develop and disseminate
centralized policy and procedures regarding the issuance of temporary extensions. This
guidance should address the appropriate clauses to be used when issuing either
unilateral or bilateral temporary extensions. This information will help alleviate
confusion and uncertainty among COs, and help ensure that the extensions are valid.

Supervisory Review Practices Vary

There are no centralized policies requiring supervisory approval prior to issuing
temporary extensions and some of our sampled contract files contained no evidence of
supervisory involvement. Issuing temporary extensions without an effective control
increases the likelihood that use of extensions will increase and could be issued
improperly, possibly rendering the extensions invalid. Supervisory review through
observation and inquiry is an example of an effective internal control and may prevent
and detect errors and irregularities.

The COs we interviewed understood the value of discussing temporary extensions with
their supervisors and often did so, but there is not a formal MAS program-wide policy
requiring that a supervisory discussion be held or documented. Because there is not a
MAS program-wide policy, branch managers for two branches within one acquisition
center issued their own guidance relative to supervisory reviews.

One branch issued an October 2008 letter regarding options guidance. It states that
COs should contact their team lead or branch chief if they have questions about
deciding whether to temporarily extend a contract. However, this letter does not
mandate this discussion, require documentation of the discussion for the contract file, or
require supervisory review or approval of the extension. Another branch within the
same acquisition center issued a February 2010 policy stating that no temporary
extensions can be issued without prior supervisory approval.

In reviewing the contract files, 4 of the 20 extensions in our sample contained no
evidence of supervisory review of the extensions. The contracting officials who were
involved with these extensions advised us that COs generally notify their supervisors
about temporary extensions, but that they were not required to document it in the
contract file. Center management in one of the two centers involved acknowledged that
it would be beneficial to document such supervision in the contract file.




                                            4
Acquisition centers may find it advantageous to capitalize on a FSS Online 3 system
change that was implemented in August 2009 at the request of one acquisition center.
FAS’s Office of the Chief Information Officer (OCIO) identified a method within FSS
Online that limits the ability for a CO to process a temporary contract extension
modification until supervisory approval is granted within the system. This system
change was developed generically so that this control could be implemented for other
centers if requested.

However, one of the extensions in our sample from this center was signed after its
effective date, meaning that the contract had lapsed, despite supervisory approval. This
specific contract had over $17 million in sales in FY 2010. Therefore, for this control to
be effective, it needs to be thorough rather than perfunctory.

Recommendations

We recommend that the Commissioner of the Federal Acquisition Service:

1. Ensure consistency in implementing and adhering to regulations, policies, and
   procedures regarding temporary extensions by establishing centralized policies and
   procedures for use of the proper contract clauses by the acquisition centers.

2. Remedy potential financial and competition issues by examining the contracts with
   performance period lapses identified as part of this review.


Finding 2 -- No Reliable Data Exists for Monitoring and Managing Temporary
Extensions

FAS does not currently have an automated method which centrally compiles,
summarizes, and reports temporary extension usage data. While one portfolio and
multiple acquisition centers capture this data manually at some level of detail, the
existing data does not fully or accurately represent the use of temporary extensions
across the entire MAS program. The absence of this data significantly limits FAS’s
ability to manage and reduce the need for temporary extensions.

At the onset of this review, FAS officials notified us that we may face challenges in
obtaining data regarding temporary extensions. Subsequently, we submitted a request
to FAS’s Office of Acquisition Management for MAS program-wide data regarding
extensions issued in FYs 2009 and 2010. The FAS OCIO advised us that this type of
data had never been previously requested and as such, a system change request would
need to be submitted and a program developed to create a report from FSS Online.


3
  FSS Online, which acquisition personnel use to administer contracts, is the front-end interface for FSS-
19. FSS-19 is an automated supply system that supports GSA’s mission of procuring goods and services
for customer agencies.
                                                    5
With the lack of centralized data, some acquisition centers and a portfolio have
developed ways to track temporary extension issuance independently. For example,
one portfolio requests data from its acquisition centers on a monthly basis and compiles
those responses into a consolidated report. While we find it positive that the portfolio is
interested in tracking this information, we question the methodology:

   •   The data is manually accumulated by the centers and therefore, subject to
       human error. Our review of this data collected by the portfolio revealed
       inaccuracies in the manner in which the centers report the information to
       portfolio management. The variances in reporting render the data
       unreliable and therefore, ineffective in managing temporary extensions.

   •   The consolidated report identifies and tracks only one cause of temporary
       extensions–audits; however, the FY 2010 report indicates that only 13
       percent are attributable to audits. In order for FAS to reduce the number
       of temporary extensions, it is necessary to identify the reasons they were
       needed. Therefore, it would be beneficial if the center data and
       consolidated report identified all major causes of temporary extensions.

In November 1999, the Government Accountability Office (GAO) issued Standards for
Internal Control in the Federal Government. This publication lists five standards, one of
which is Information and Communications.          This standard states that program
managers need timely operational data to determine if they are meeting their strategic
plans and to effectively and efficiently use resources. GAO recognizes that effective
information technology management is essential for useful, reliable, and continuous
recording and communication of information.

Without reliable program-wide data, FAS puts itself at risk of not using resources in the
most efficient way. It is not possible to manage temporary extensions if there is no
accurate, complete information on how often they are being issued, by whom, or why.
FAS management recognizes that temporary extension usage is an issue that requires
attention. In October 2009, FAS’s Office of Acquisition Management established a team
of 21 individuals from 11 GSA offices nationwide and two individuals from the
Department of Veterans Affairs to work with a contractor to simplify the options process.
They did this in part because they believe that the complexity of the current process
causes unnecessary temporary extensions.

During our interviews, we found differing opinions of whether the complexity of the
process is, in fact, a root cause of temporary extensions. Some contracting officials
cited the current option process as a contributing factor for temporary extensions.
However, the majority of the COs interviewed stated that the options process itself was
not a typical reason for these extensions. The COs advised us of additional causes of
temporary extensions, including vendor delay in providing requested option package
data and CO workload. These differing perspectives illustrate the need for timely,
accurate data in order to identify the root causes of temporary extensions. Using this
information, management can work to decrease the number of temporary extensions
                                            6
issued. Additionally, this data could assist in identifying best practices that could be
adopted throughout the MAS program.

Recommendation

We recommend that the Commissioner of the Federal Acquisition Service:

3. Improve FAS’s ability to manage and reduce the need for temporary extensions
   within the MAS program by developing an automated method of accumulating and
   reporting data regarding the use of temporary extensions. The data collected
   should encompass all acquisition centers and the rationale for issuing the
   extension.


Conclusion

We found that acquisition centers are not consistently implementing and adhering to
regulations, policies, and procedures regarding temporary extensions. The main cause
of these inconsistencies is the lack of formalized and centralized policies and
procedures. As a result, various regulations and portfolio or center-specific policies
were applied, although not necessarily adhered to, when issuing temporary extensions.
Establishing program-wide policies and procedures will assist COs in adhering to
procurement regulations as they relate to temporary extensions. In addition, a
centralized data source to track the use of temporary extensions will allow for better
management of resources and operations.


Management Comments to the Draft Report

On March 30, 2011, the Commissioner of the Federal Acquisition Service concurred
with the findings and recommendations of the report and requested additional
information regarding the contract sample. Management’s written comments to the
draft report are included in their entirety as Appendix B.


Internal Controls

The examination of internal controls was limited to those necessary to achieve the
specific objectives and scope of the review. Our results are identified in the body of this
report.




                                            7
APPENDIXES
             REVIEW OF CONSISTENCY IN IMPLEMENTING POLICY ACROSS
                 ACQUISITION CENTERS – TEMPORARY EXTENSIONS
                       REPORT NUMBER A100204/Q/A/P11005


                                            APPENDIX A

             BACKGROUND AND OBJECTIVE, SCOPE, AND METHODOLOGY

Background

The General Services Administration’s (GSA’s) Multiple Award Schedule (MAS)
program provides government customers 1 with access to over 11 million commercial
supplies and services through approximately 18,000 contracts. Customers use these
contracts to order directly from commercial vendors. Total MAS program sales for fiscal
year (FY) 2009 were $38.02 billion and increased to $38.91 billion for FY 2010.

The MAS program is operated by GSA’s Federal Acquisition Service (FAS) via three
portfolios: Integrated Technology Services; General Supplies and Services; and Travel,
Motor Vehicle, and Card Services. Within these three portfolios, nine acquisition
centers manage and administer the MAS contracts. The General Supplies and
Services portfolio is responsible for six of the centers. The Travel, Motor Vehicle, and
Card Services portfolio is responsible for two centers and the Integrated Technology
Service portfolio manages the remaining center.

Acquisition center operations are guided by overarching policies and guidance that
originate from two offices: FAS’s Office of Acquisition Management and GSA’s Office of
the Chief Acquisition Officer. FAS’s Office of Acquisition Management develops and
implements MAS program policy guidelines by issuing Instructional Letters and
Procurement Information Notices. Additionally, this office coordinates the development
and maintenance of MAS policy handbooks and desk guides and engages in program-
wide process improvement activities. GSA’s Office of the Chief Acquisition Officer
contributes to writing the Federal Acquisition Regulation (FAR), which encompasses
governmentwide procurement rules. This office also writes and revises the General
Services Administration Acquisition Manual (GSAM), GSA’s internal rules on
procurement.

The term of an MAS contract is one 5-year base period and three 5-year option periods.
At the conclusion of the contract’s base and each of its first two option periods, the
contracting officer (CO) is responsible for evaluating and exercising an option for an
additional 5-year period. If the CO is unable to evaluate and award an option prior to
the contract’s expiration, the CO can temporarily extend the period of performance.
These temporary extensions can be unilateral (approved by FAS) or bilateral (approved

1
    Government customers include federal agencies and in some cases, state and local governments.


                                                  A-1
by the vendor and FAS). If the temporary extension is unilateral, the CO must cite the
authority (included as a clause in the contract) which allows for this modification. Based
on FAS data, the number of temporary extensions issued in FY 2010 2 by portfolio was:

Figure 1: Number of MAS Temporary Extensions Awarded in FY 2010


              1000

               800

               600

               400

               200

                0
                     Integrated Technology   General Supplies &   Travel, Motor Vehicle, and
                             Service             Services                Card Services


Objective, Scope, and Methodology

Our objective was to determine if FAS acquisition centers are consistently implementing
and adhering to regulations, policies, and procedures regarding temporary extensions.

A review to determine FAS’s consistency with regard to procurement regulations,
policies, and procedures across acquisition centers was included as part of the GSA
Office of Inspector General’s (OIG’s) FY 2010 Annual Audit Plan. Based on prior work
performed in this area 3 and survey work performed as part of this review, we chose to
focus on temporary extensions.

In order to accomplish our objective, we:

    •   Reviewed relevant Government Accountability Office and GSA OIG
        reports issued during the period FY 2007 through FY 2010.

    •   Identified and reviewed applicable national policy and guidance including
        the FAR, GSAM, and FAS Instructional Letters.




2
  This data was provided to us by FAS officials; however, we question its accuracy. Please see the
section titled, “Finding 2 -- No Reliable Data Exists for Monitoring and Managing Temporary Extensions”
for more information.
3
  “Review of Consistency in Implementing Policy Across Acquisition Centers,” Report Number
A070118/Q/A/P09007 issued by the GSA OIG on September 30, 2009.

                                                  A-2
    •   Reviewed FSS Online data related to MAS contracts and conferred with a
        representative from the FAS Office of the Chief Information Officer
        regarding system capabilities.

    •   Identified and reviewed relevant FAS, portfolio, and center policies,
        procedures, and guidance relating to temporary extensions.

    •   Interviewed and held discussions with cognizant FAS Headquarters
        personnel regarding relevant regulations, policies, and procedures.

    •   Conducted interviews regarding temporary extension regulations, policies,
        procedures, and practices at the following acquisition centers: 4

            o Center for Information Technology Schedule Programs
            o Center for Facilities Maintenance & Hardware
            o Management Services Center

    •   Selected and reviewed a stratified random sample 5 of temporary
        extensions issued in FY 2010 for 13 contracts awarded by the acquisition
        centers listed above.

We conducted our review from August 2010 to November 2010 in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the review to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our review objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our review objectives.




4
 To select these acquisition centers, we considered FY 2009 sales volume, the number of contracts in
effect as of FY 2009, the number of FY 2009 modification requests, and input from FAS officials.
5
  The sample was stratified based on FY 2010 sales as reported by FAS. We selected contracts from
three sales strata to ensure we reviewed contracts of varying dollar amounts, but with an emphasis on
contracts with higher FY 2010 sales.

                                                  A-3
REVIEW OF CONSISTENCY IN IMPLEMENTING POLICY ACROSS
    ACQUISITION CENTERS – TEMPORARY EXTENSIONS
          REPORT NUMBER A100204/Q/A/P11005

                    APPENDIX B

    MANAGEMENT COMMENTS TO THE DRAFT REPORT




                        B-1
B-2
         REVIEW OF CONSISTENCY IN IMPLEMENTING POLICY ACROSS
             ACQUISITION CENTERS – TEMPORARY EXTENSIONS
                   REPORT NUMBER A100204/Q/A/P11005


                                      APPENDIX C

                                REPORT DISTRIBUTION

Commissioner, Federal Acquisition Service (Q)

Director, Internal Control and Audit Division (BEI)

Assistant Inspector General for Auditing (JA & JAO)

Assistant Inspector General for Investigations (JI)

Deputy Assistant Inspector General for Acquisition Audits (JA-A)




                                           C-1
